                   U.S. Department of the Interior
                       Office of Inspector General




                                       Photo Left: Pohnpei
                                       Department of Education
                                       (Office of Inspector
                                       General Photo)




 Photo Right: Pohnpei
 State Hospital (Office
 of Inspector General
 Photo)



 Pohnpei State, Federated States of Micronesia:
           Property Accountability Process
              Needs To Be Established


Report No. P-EV-FSM-0001-2006           October 2007
                     United States Department of the Interior

                                       Office of Inspector General
                                             Washington, D.C. 20240

                                     EVALUATION REPORT

                                                                                   October 17, 2007

The Honorable Johnny P. David
Governor of Pohnpei State
Federated States of Micronesia
Kolonia, Pohnpei FM 96941

Re: Final Evaluation Report Pohnpei State, Federated States of Micronesia, Property
    Accountability Process Needs To Be Established
    (Report No. P-EV-FSM-0001-2006)

Dear Governor David:

       This report presents the results of our evaluation of Pohnpei State Government’s
property accountability process (Report No. P-EV-FSM-0001-2006). The objective of
our evaluation was to determine whether the accountability process safeguarded supplies
and equipment to minimize the risk of fraud, waste, and mismanagement. The scope and
methodology of our evaluation are detailed in Appendix 1.

        Pohnpei State, as one of the Federated States of Micronesia (FSM), is aligned
with the United States in a Compact of Free Association. Under the Compact, the United
States, through the Department of the Interior’s (DOI) Office of Insular Affairs (OIA), is
committed to providing financial assistance, targeted at high priority areas. In 2006,
financial assistance to FSM totaled $76 million. Subgrants to Pohnpei State totaled
$14.2 million, of which $11.9 million was for health and education.

       In accepting this financial assistance, FSM agreed to “maintain effective controls
and accountability for all Grant and Sub-Grant cash, Real Property, and personal
property, and other assets to safeguard and ensure uses are solely for authorized
purposes.”1 The specific design of the property accountability process is largely left to
FSM and Pohnpei State. The Fiscal Procedures Agreement, however, does establish
minimum requirements for managing equipment. First, property records, which include
the property description, serial number (or other identification number), acquisition date
and cost, percentage of U.S funding, location, condition, and other information, must be

1
 Fiscal Procedures Agreement – Agreement Concerning Procedures for the Implementation of United
States Economic Assistance Provided in the Compact of Free Association, as amended, Between the
Government of the United States of America and the Government of the Federated States of Micronesia


                                                  1
maintained. Second, a physical inventory of the property and reconciliation with
property records must be performed at least every 2 years.

                                    Results of Evaluation
        Pohnpei State has not implemented an effective property accountability process to
ensure that acquired supplies and property were properly used and safeguarded to
minimize the risk of fraud, waste, and mismanagement. We identified serious
deficiencies in accounting for supplies and equipment in three major areas: the hospital,
schools, and State-owned equipment. Establishing internal controls in these areas would
help ensure that employees detected or prevented errors and irregularities in a timely
manner during the normal course of business. We made four recommendations to help
improve property accountability. We believe that implementation of these
recommendations will help Pohnpei State develop an effective, accountable, and
transparent local government.

Hospital
        We determined that the Pohnpei State Hospital (Hospital) failed to adequately
account for drugs, particularly controlled substances, stocked in the pharmacy pending
distribution to hospital wards and patients. The Controlled Substances Act2 is the legal
foundation for the U. S. Government’s fight against drug abuse. Under the Act, certain
narcotics, stimulants, and depressant drugs, which have safe and accepted medical uses
but which also have high potential for abuse, are designated as controlled substances.
Despite the mandate for strict controls over controlled substances, the Hospital has not
developed a strong internal control environment.

        The pharmacy maintained a hand-written logbook to record receipts, issuances,
and on-hand balances for controlled substances. We tested the reliability of the logbook
and found significant mathematical errors, unrecorded receipts, and unsupported
inventory adjustments. It was the pharmacy’s practice to balance its records to the
physical count of pills, injectibles, and solutions through inventory adjustments without
ascertaining the causes of discrepancies. Identifying the causes for inventory variances
provides management with the information needed to evaluate internal control system
deficiencies and identify possible thefts. After eliminating recording errors, we found
either an overage or a shortage for all 14 controlled substances listed in the logbook.
Seven drugs had overages ranging from 14 to 2,078 units, and seven had shortages
ranging from 5 to 4,667 units. Figure 1 shows the significant differences between the
recorded balance, our corrected balance, and the resulting shortages based on our
corrected balance and physical count for three controlled substances.




2
 Controlled Substances Act, Title II of the Comprehensive Drug Abuse Prevention and Control Act of
1970, 21 U.S.C. §§ 801-971


                                                  2
                                                            Inventory Shortages


                                        8000

                                        7000

                                        6000




                    Number of Tablets
                                                                                             Recorded Balance
                                        5000                                                 Corrected Balance
                                                                                             Physical Count
                                        4000
                                                                                             Shortage

                                        3000

                                        2000

                                        1000

                                          0
                                          Acetaminophen    Diazepam         Phenobarbitone
                                            with Codeine


                                                                                                   Figure 1
                                                             Source: Hospital Records and Inventory

       Inadequate internal controls in key areas, such as segregation of duties and
physical inventories, contributed to the lack of accountability over drugs.

        Segregation of Duties. At the most basic level, segregation of duties means that
no single person should have control over all key aspects of a transaction or operation.
Such duty segregation reduces the possibility of fraud, since two or more people would
need to collude to circumvent established controls. In instances where segregation of
duties and responsibilities is not possible, mitigating or compensating controls to reduce
the risk of errors or fraud need to be established. For instance, if a person is responsible
for both recordkeeping and custody, the supervisor could review the records and oversee
the physical inventory to provide additional control.

        We found that two of the Hospital staff were collectively responsible for the
custody of, recordkeeping for, and reconciliation of controlled substances. This protocol
lacked the necessary checks and balances provided by a segregation of duties to reduce
the risk of error or fraud.

        Physical Inventory. A physical inventory involves physical counts, comparison
of counts to records, reconciliation to resolve differences, and evaluation of results to
identify control deficiencies and inventory theft. In the case of the pharmacy, however,
the inventory served more as a counting exercise rather than as an internal control
mechanism to validate the integrity of the pharmacy records and to detect problems.

        For the period March 17, 2005, to July 2006, we found significant unsupported
entries to the pharmacy inventory log. Twenty-three entries resulted in the deletion of
85,965 units and the addition of 18,901 units to the inventory log. The pharmacy also
stocked over 200 other non-controlled substance drugs that were not included in the
inventory. Instead, we found multiple, unorganized drawers of prescription orders
without a system to track receipts, issuances, on-hand balances, and reorders. Pharmacy
personnel relied on visual inspections to determine when these drugs should be reordered.



                                                                3
The lack of an inventory system has resulted in expensive emergency purchases of drugs
because of stock shortages.

         In addition, we found excessive quantities of expired controlled substances. For
example, as of July 2006, the pharmacy had over 11,000 expired pills, injectables, and
solutions on hand. Although physically segregated, the expired products pose additional
risk of loss or abuse if not disposed of timely. Despite previous incidents of theft and
abuse involving Hospital staff described for us by the Director of Health, the Hospital has
not established adequate controls to reduce its vulnerability.

Schools
        At the Department of Education (DOE), essential supplies were not adequately
controlled to ensure that they were available for use in classrooms. School principals at
six of the seven elementary schools in Pohnpei State stated that their schools did not
receive requested supplies for the previous or current school years as of August 2006.
Principals at most of the schools stated that donations from parents, teachers, and the
community were used to purchase needed supplies.

        We judgmentally selected $64,452 of the $149,992 expended by DOE’s central
office under the School Improvement Program component of the Supplemental Education
grant for instructional materials and supplies. Only one purchase for $1,408 could be
confirmed as having been received by a school. We could not determine the disposition
of the balance of the supplies and materials purchased by DOE because of the lack of
proper recordkeeping. For example, most supplies, such as printer/copier toner cartridges
and paper, were ordered in bulk for use by the schools and DOE. We observed that these
types of items were being stored in an open area accessible to employees and visitors in
the central office. A DOE official told us that school representatives who pick up the
supplies should sign the logbook to acknowledge receipt of the supplies. We found,
however, that DOE’s central office staff did not maintain an up-to-date logbook or other
records showing the disposition of supplies.

         A controlled inventory environment and accurate recordkeeping not only ensure
that books and supplies are purchased and distributed properly, but also provide the
critical basis for future budget projections. For example, Pohnpei State’s annual budget
for fiscal year 2006 included prior-year actual revenue and expenditure information for
each school, but lacked detailed breakdowns of actual and budgeted expenditures by type
of cost for each school (e.g. salaries, equipment, instructional materials, and supplies). If
such information had been available and provided to the Director of Education and the
State Board of Education, we believe it could have alerted them of the serious
accountability problems within DOE and allowed them to better plan for future years.




                                              4
State-Owned Equipment
        Pohnpei State has yet to correct the significant property accountability problems
identified in the 1999 report by its Public Auditor’s Office.3 According to that report, the
physical inventory showed that 575 items (or 35 percent) of the 1,634 items sampled,
were not found. The missing items, including computers, printers, video recorders, and
cameras, had a cumulative value exceeding $1 million. DOE, in particular, could not
account for 211 items valued at over $200,000.

        The Fiscal Procedures Agreement and Pohnpei State regulations require Pohnpei
to account for items valued at $1,000 or more, with a useful life exceeding 1 year, on its
property inventory and to conduct a property inventory every 2 years. In addition to
these regulations, sound business practices dictate that sensitive items, regardless of
value, should be controlled and accounted for because of their susceptibility to loss, theft,
or misuse. However, Pohnpei State’s Department of Treasury, Division of Property and
Supply did not effectively carry out this responsibility. For example, in 2004, the
Division performed a physical inventory and found significant differences between the
books and counts, but failed to resolve these differences. In 2005, the Division did not
even conduct physical inventories, and no property control procedures were in place for
sensitive “walkaway” items, such as digital cameras, printers, and cell phones, which did
not meet the $1,000 value and 1-year useful life threshold.

        In September 2006, at our request, the Division conducted a physical inventory of
property held by DOE. As in the 1999 Public Auditor’s Office report, significant
accountability problems were identified: 363 (or about 45 percent) of 811 property items
could not be found. The missing items, including computers and printers, were valued at
about $750,000. Conversely, during the inventory, Division personnel also found
281 items that were not on the property records. Among the reasons for the significant
inventory differences were DOE’s failure to report items transferred, lost, or discarded;
clerical errors in recording asset receipt, transfer, or disposal; and theft.

        A 2002 Government Accountability Office (GAO) report4 identified best
practices for conducting physical inventories compiled from seven large leading-edge
private sector companies. (See Appendix 2 for the full text of these practices.) These
best practices include:

     Enlisting knowledgeable staff, segregating duties, and providing adequate
      supervision over the inventory process.

     Performing research to resolve inventory differences.

     Evaluating count results to identify the root causes of differences.


3
  Pohnpei State Public Auditor’s Office: General Fixed Assets Account Group Audit Report Year Ended
September 30, 1999
4
  GAO: Executive Guide - Best Practices in Achieving Consistent, Accurate Physical Counts of Inventory
and Related Property, GAO-02-447G, March 2002


                                                   5
                                  Recommendations
       We recommend that the Governor of Pohnpei State establish an effective property
accountability process by:

        1. Establishing an effective inventory system to account for drugs dispensed by
           the pharmacy, which includes adequate segregation of duties and meaningful
           physical inventories to ensure proper use and safeguards are in place to
           prevent abuse and theft.

        2. Establishing an inventory control and recordkeeping system to account for
           school supplies issued by the Department of Education to ensure proper
           safeguards are in place to prevent abuse and theft.

        3. Revising the property book policy to include a requirement to conduct and
           reconcile a physical inventory at least annually to include sensitive items
           under the $1,000 threshold on the property records.

        4. Applying the best practices in Appendix 2, which have been identified as
           critical for achieving accurate physical inventories.

         In your September 5, 2007 response to our draft report and the September 19,
2007 supplementary correspondence (Appendix 3),5 you concurred with the report’s
findings and recommendations and described actions being taken, including issuance of
Executive Order No. 02-2007, to address the deficiencies and to improve overall property
accountability. We commend your decisive action to address the deficiencies identified
in this report and your commitment to make significant improvements in Pohnpei State
Government’s property accountability process.

        As part of your response, the Departments of Treasury and Administration, Health
Services, and Education provided information describing corrective actions they plan to
take to address the recommendations. Based on the information they provided, we
consider Recommendations 1 and 3 resolved, but not implemented, and require additional
information before Recommendations 2 and 4 can be considered resolved.

       For Recommendation 2, DOE responded that it plans to purchase storage
containers to temporarily house education supplies and that new distribution forms would
be used to improve recordkeeping. However, sufficient information was not included to
allow us to determine how an inventory control and recordkeeping system would be
designed and implemented. As for Recommendation 4, sufficient information was not
included concerning the physical inventory process that will be established. Accordingly,
Appendix 4 describes the status of each of the recommendations and the actions required
to consider the recommendations implemented and resolved.

5
 Appendix 3 does not include various property forms and documents proposed for use by the Department
of Health Services and DOE, which accompanied the Governor’s response.


                                                  6
       The legislation, as amended, creating the Office of Inspector General requires that
we report to Congress semiannually on all audit reports issued, actions taken to
implement recommendations, and recommendations that have not been implemented.

       Please provide a response by November 30, 2007, to Mr. Kevin Graves, Acting
Field Supervisor, Honolulu Field Office, 2800 Cottage Way, Suite E-2712, Sacramento,
California 95825. Your response should provide the information requested in
Appendix 4.

       We appreciate the cooperation shown by Pohnpei State during our evaluation. If
you have any questions regarding this report, please call me at (202) 208-5745.

                                     Sincerely,



                                     Earl E. Devaney
                                     Inspector General

cc:    Honorable Miriam K. Hughes, Ambassador, Federated States of Micronesia
       Chairman, Joint Economic Management Committee
       David B. Cohen, Deputy Assistant Secretary for Insular Affairs
       Nikolao Pula, Director, Office of Insular Affairs
       Marina Tinitali, Audit Liaison Officer, Office of Insular Affairs
       Honolulu Field Office, Office of Insular Affairs




                                            7
Appendix 1
Objective, Scope, and Methodology

             The objective of our evaluation was to determine whether
             Pohnpei State’s property accountability process safeguarded
             supplies and equipment to minimize the risk of fraud, waste, and
             mismanagement. We conducted our evaluation from June 2006
             to October 2006. Our evaluation was conducted in accordance
             with the January 2005 Quality Standards for Inspections issued
             by the President’s Council on Integrity and Efficiency. To
             accomplish our objective, we:

             ¾ Reviewed the regulatory framework, including Compact II,
               their subsidiary agreements, the U.S. implementing
               legislation, grant documents, and Pohnpei State regulations.
               These documents establish numerous reporting and
               accountability requirements.

             ¾ Reviewed FSM’s Strategic Development Plan, Institutional
               Capacity Building Roadmap, Education Reform Strategy, and
               various budget and financial and single audit reports.

             ¾ Interviewed OIA, FSM, and Pohnpei State officials.

             ¾ Reviewed DOI’s Fiscal Year 2005 Performance and
               Accountability Report, including information required by the
               Federal Manager’s Financial Integrity Act.

             ¾ Reviewed internal controls related to property accountability.

             ¾ Reviewed reports by GAO and the Pohnpei State Auditor that
               were applicable to our evaluation of property accountability.

             ¾ Performed tests of property records to evaluate the adequacy
               of property controls and to verify the accuracy of property
               records.




                                8
Appendix 2
GAO Best Practices for Accurate Physical Inventories




               1. Establish accountability.                                 4. Determine frequency of
               2. Establish written policies.                                  counts.
               3. Select approach.                                          5. Segregate duties.
                                                                            6. Enlist knowledgeable
                                                                               staff.




                                                BEST PRACTICES




               10. Execute physical count.                                  7. Provide adequate
               11. Perform research to                                         supervision.
                   determine cause for                                      8. Perform blind counts.
                   discrepancy.                                             9. Ensure completeness
               12. Evaluate results to                                         of count.
                   identify corrective
                   action or improvement
                   to system.




Source: GAO: Executive Guide – Best Practices in Achieving Consistent, Accurate Physical Counts of
             Inventory and Related Property, GAO-02-447G, March 2002




                                                  9
Appendix 3
Pohnpei State Government Response




                     10
11
12
13
14
15
16
17
18
19
20
21
22
Appendix 4
Status of Recommendations


Recommendations       Status                      Action Required

        1         Resolved, not        Provide documentation demonstrating
                  implemented.         that the organizational responsibilities
                                       and inventory control processes
                                       identified in the corrective action plan
                                       recommended by the Acting Director,
                                       Department of Health have been
                                       implemented.


        2         Management           Provide a plan of action for establishing
                  concurs, but         an inventory control and recordkeeping
                  additional           system to account for school supplies
                  information          issued by DOE. The plan should
                  needed.              identify the procedural and
                                       organizational controls that will be
                                       implemented and should include target
                                       dates and titles of the officials
                                       responsible for implementing corrective
                                       actions.


        3         Resolved, not        Provide a copy of the revised State
                  implemented.         policy requiring annual physical
                                       inventories that include sensitive items
                                       valued at less than $1,000.


        4         Management           Provide documentation demonstrating
                  concurs, but         that the best practices for achieving
                  additional           accurate physical inventories are
                  information          employed in conducting monthly
                  needed.              physical inventories of controlled drugs
                                       and annual physical inventories of
                                       equipment and other sensitive items.




                                  23
